OIG Investigative Reports, Former Department of Education Employee Sentenced to 54 Months in Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Roscoe C. Howard, Jr.
United States Attorney for the
District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C. 20530
PRESS RELEASE
FOR IMMEDIATE RELEASE
August 5, 2003
For Information Contact Public Affairs
Channing Phillips   (202) 514-6933
Former Department of Education employee sentenced to 54 months in prison for conspiracy and government theft - husband and son also receive prison terms
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., Michael Rolince, Assistant Director in Charge of the FBI's Washington Field Office, John P.
Higgins, Jr., Department of Education Acting Inspector General, and Environmental Protection Agency Inspector General Nikki L. Tinsley announced that Elizabeth Mellen, 56, the former
Contracting Officers Technical Representative at the Department of Education was sentenced today in U.S. District Court by the Honorable Emmet G. Sullivan to serve 54 months in prison
for her role as the mastermind of a conspiracy which cost the Department of Education in excess of $1,000,000. She was also ordered to perform 300 hours of community service upon her
release from prison. Judge Sullivan also sentenced Elizabeth Mellen's husband, Luther E. Mellen, III, 54, former Branch Chief in the Architecture, Engineering and Real Estate Branch
of the Environmental Protection Agency, to serve 27 months in prison and to pay a fine of $50,000. Elizabeth Mellen's son, Philip C. Burroughs, 29, a former manager at Ken Dixon Auto
in Waldorf, Maryland, was sentenced by Judge Sullivan to serve 16 months in prison to be followed by the performance of 300 hours of community service.
Elizabeth Mellen had previously pled guilty to Conspiracy and Theft of Government Property on January 17, 2002. Philip Burroughs and Luther Mellen were both found guilty of
Conspiracy to Defraud the United States and Receipt of Stolen Government Property on November 7, 2002, following a jury trial before Judge Sullivan. Burroughs was also found guilty of
Theft of Government Property. Elizabeth Mellen's nephew, Jeffrey Morgan, also a former Department of Education employee, was also found guilty at that jury trial of Theft of
Government Property, and was sentenced to serve 6 months in a halfway house on May 19, 2003. On that same day Maurice Hayes, a former Bell Atlantic Technician, was sentenced to serve
27 months in prison following a trial in February 2002, where he was found guilty of Conspiracy and Theft of Government Property.
During the trial, the government's evidence demonstrated that Elizabeth C. Mellen, the wife of Luther Mellen, was a Telecommunications Specialist in the Office of Chief Information
Officer at the United States Department of Education (Department), who managed the Department of Education's contract with the former Bell Atlantic Federal Systems (Bell Atlantic)
(now Verizon, Inc.). In that capacity, Elizabeth Mellen was responsible for the technical aspects of any project relating to the contract and served as the technical liaison between
Bell Atlantic and the Contract Officer. Under the contract, materials necessary for the completion of the contract, such as wiring, telephones, and other equipment used for the
installation of the telephone service, were ordered by Elizabeth Mellen through Robert Sweeney, a Bell Atlantic telephone technician who was assigned full-time to the Department and
who previously pled guilty to Theft of Government Property and agreed to cooperate with the government. In turn, Bell Atlantic would order the necessary products through vendors who
would deliver the products to Bell Atlantic's Washington, D.C., warehouse. Sweeney would pick up the items and deliver them to locations specified by Elizabeth Mellen. The Department
was ultimately held responsible for the cost of the items.
In or before 1997, Elizabeth Mellen began asking Sweeney to order materials for her personal use and that were not related to the performance of the Department's contract.
Initially these orders were sporadic and limited to telephones. The orders increased in amount and frequency in early 1997, when Elizabeth Mellen ordered a Gateway 2000 Destination
computer for the house she and Luther Mellen shared. The next high-dollar item was a laptop computer that she ordered for her stepson at the request of Luther Mellen, in April 1997.
Once these orders went through without any difficulty, Elizabeth Mellen began to order large quantities of electronic equipment which she kept for herself or gave to various family
members or friends including her son, Philip Burroughs, from a previous marriage and her nephew, Jeffrey Morgan.
Other family members joined in by communicating their personal requests to Elizabeth Mellen. The value of her orders increased until she was ordering multiple high-dollar items at
a time. In the summer of 1999, Elizabeth Mellen caused to be delivered to the home of her sister, Jeffrey Morgan's mother, a stolen Gateway Computer and multiple accessories which
Morgan converted to his own use. She also gave several of her relatives, including Philip Burroughs, cellular telephones, paid for with Department funds and she ordered the use of
Department funds to pay for the monthly costs associated with calls made on the telephones. In addition, on various occasions, Elizabeth Mellen provided the services of the Bell
Atlantic technicians and another Department employee to install wiring or phone lines at the homes of various relatives at the Department's expense and to perform such menial tasks as
washing the deck of Philip Burroughs' home, doing lawn work at his home and cleaning up yard debris. At Elizabeth Mellen's direction, the technicians in turn claimed false
overtime.
This continued until December 9, 1999, when law enforcement agents executed search warrants and conducted consent searches at the home of Elizabeth Mellen and Luther Mellen and the
homes of several of her relatives including defendants Philip Burroughs and Jeffrey Morgan. Subsequent investigation revealed that, overall, Elizabeth Mellen ordered for her personal
use and for the use of defendants and other family members and close associates, more than $350,000 worth of goods paid for by the Department and generated over $934,000 in fraudulent
labor and overtime claims. There were originally 18 co-conspirators charged in this scheme. Fourteen, including Elizabeth Mellen, pled guilty, seven of whom agreed to cooperate with
the government and who testified at the trial.
In announcing the results of this prosecution, United States Attorney Howard, Acting Assistant Director Rolince, Inspector General John P. Higgins, Jr., and Inspector General Nikki
L. Tinsley commended the following persons for the outstanding contributions to this case: Special Agent in Charge Gary Mathison, Special Agents Brian L. Hickey and John J.
Hendrickson of the Department of Education Office of the Inspector General; Special Agent Thomas Chadwick of the Federal Bureau of Investigation; and Special Agent In Charge of
Northeastern Investigations, Gary Fugger and Special Agent Mathew A. Walinski of the Environmental Protection Agency. They also praised the outstanding work of Assistant United States
Attorneys Laura A. Ingersoll and Debra L. Long-Doyle who tried the case against Luther Mellen, Philip Burroughs and Jeffrey Morgan; and Assistant United States Attorney Gregory
Marshall who tried the case against Maurice Hayes, along with former Assistant United States Attorney Barbara A. Grewe, who indicted the case.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov